No. _________
IN THE SUPREME COURT OF THE UNITED STATES

BRANDON DEMON BLACKMON,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS FOR THE FIFTH CIRCUIT
APPENDIX

/s/ Adam Nicholson
JASON HAWKINS
Federal Public Defender
Northern District of Texas
TX State Bar No. 00759763
525 Griffin Street, Suite 629
Dallas, TX 75202
(214) 767-2746
(214) 767-2886 Fax

Adam Nicholson **
Assistant Federal Public Defender
Northern District of Texas
TX State Bar No. 24097045
525 S. Griffin Street, Suite 629
Dallas, TX 75202
(214) 767-2746
(214) 767-2886

INDEX TO APPENDICES
Appendix A Judgment and Opinion of Fifth Circuit, CA No. 20-10755 , dated
April 16, 2021, United States v. Blackmon, 844 F. App’x 729 (5th Cir.
2021)(unpublished).
Appendix B Judgment and Sentence of the United States District
Court for the Northern District of Texas, entered July 17, 2020.
United States v. Blackmon, Dist. Court 3:19-CR-258-1.

APPENDIX A

Case: 20-10755

Document: 00515825659

Page: 1

Date Filed: 04/16/2021

United States Court of Appeals
for the Fifth Circuit
___________

United States Court of Appeals
Fifth Circuit

FILED
April 16, 2021

No. 20-10755
Summary Calendar
___________

Lyle W. Cayce
Clerk

United States of America,
Plaintiff—Appellee,
versus
Brandon Demon Blackmon,
Defendant—Appellant.
____________________________
Appeal from the United States District Court
for the Northern District of Texas
USDC No. 3:19-CR-258-1
____________________________
Before Higginbotham, Jones, and Costa, Circuit Judges.
JUDGMENT
This cause was considered on the record on appeal and the briefs on
file.
IT IS ORDERED and ADJUDGED that the judgment of the
District Court is AFFIRMED.

App. A 001

Case: 20-10755

Document: 00515825647

Page: 1

Date Filed: 04/16/2021

United States Court of Appeals
for the Fifth Circuit

United States Court of Appeals
Fifth Circuit

FILED

April 16, 2021

No. 20-10755
Summary Calendar

Lyle W. Cayce
Clerk

United States of America,
Plaintiff—Appellee,
versus
Brandon Demon Blackmon,
Defendant—Appellant.
Appeal from the United States District Court
for the Northern District of Texas
USDC No. 3:19-CR-258-1
Before Higginbotham, Jones, and Costa, Circuit Judges.
Per Curiam:*
Brandon Demon Blackmon pleaded guilty to two counts of possession
of a firearm by a convicted felon in violation of 18 U.S.C. §§ 922(g)(1) and
924(a)(2). The district court sentenced him to 46 months of imprisonment,
applying a sentencing enhancement on the ground that Blackmon’s prior

*

Pursuant to 5th Circuit Rule 47.5, the court has determined that this
opinion should not be published and is not precedent except under the limited
circumstances set forth in 5th Circuit Rule 47.5.4.

App. A 002

Case: 20-10755

Document: 00515825647

Page: 2

Date Filed: 04/16/2021

No. 20-10755

conviction under the Texas aggravated assault statute constituted a crime of
violence as defined by U.S.S.G. § 4B1.2. On appeal, Blackmon contends that
the district court erred by including a special condition of supervised release
in its written judgment that he attend “inpatient and/or outpatient”
substance abuse treatment that conflicts with the oral pronouncement at his
sentencing that he attend “either inpatient or outpatient” substance abuse
treatment. Blackmon also contends that the district court erred in applying
the sentencing enhancement, arguing that Texas aggravated assault does not
constitute a crime of violence. Blackmon correctly concedes that the latter
argument is foreclosed by our binding precedent in United States v. GuillenAlvarez, 489 F.3d 197, 200-01 (5th Cir. 2007). See United States v. Setser, 607
F.3d 128, 131 (5th Cir. 2010).
When oral pronouncement is required, “[t]he key determination is
whether [any] discrepancy between the oral pronouncement and the written
judgment is a conflict or merely an ambiguity that can be resolved by
reviewing the rest of the record.” United States v. Mireles, 471 F.3d 551, 558
(5th Cir. 2006). A conflict occurs “[i]f the written judgment broadens the
restrictions or requirements of supervised release from an oral
pronouncement,” id., or imposes more burdensome conditions, see United
States v. Bigelow, 462 F.3d 378, 383 (5th Cir. 2006).
Here, the written judgment did not necessarily create a conflict with
the oral pronouncement. At the sentencing hearing, the district court
informed Blackmon that he was to “participate in a program, either inpatient
or outpatient, . . . for treatment,” while the court’s written judgment
provided for “inpatient and/or outpatient treatment.” Although the latter
could be interpreted as broadening the conditions of supervision, we read it
as merely creating an ambiguity, as Blackmon could not feasibly participate
in both types treatment programs at once. Together, we read the district

2

App. A 003

Case: 20-10755

Document: 00515825647

Page: 3

Date Filed: 04/16/2021

No. 20-10755

court’s pronouncement and its judgment to say that Blackmon may have to
participate in inpatient treatment and then, later, in outpatient treatment.
Accordingly, Blackmon’s sentence is AFFIRMED.

3

App. A 004

APPENDIX B

Case 3:19-cr-00258-M Document 51 Filed 07/17/20

Page 1 of 7 PageID 216

UNITED STATES DISTRICT COURT

NORTHERN DISTRICT OF TEXAS DALLAS DIVISION

UNITED STATES OF AMERICA

§
§
§
§
§
§
§

v.
BRANDON DEMON BLACKMON
Defendant.
THE DEFENDANT:
☐ pleaded guilty to count(s)

JUDGMENT IN A CRIMINAL CASE
Case Number: 3:19-CR-00258-M(1)
USM Number: 59407-177
Gabriela Vega
Defendant’s Attorney

pleaded guilty to count(s) before a U.S.

☒ Magistrate Judge, which was accepted by the
☐
☐

court.
pleaded nolo contendere to count(s) which was
accepted by the court
was found guilty on count(s) after a plea of not
guilty

Counts 1 and 2 of the Superseding Indictment, filed October 9, 2019.

The defendant is adjudicated guilty of these offenses:
Title & Section / Nature of Offense

Offense Ended

Count

18 USC 922(g)(1) and 924(a)(2) Possession of a Firearm by a Convicted Felon

02/03/2019

1s

18 USC 922(g)(1) and 924(a)(2) Possession of a Firearm by a Convicted Felon

02/03/2019

2s

The defendant is sentenced as provided in pages 2 through 7 of this judgment. The sentence is imposed pursuant to the Sentencing
Reform Act of 1984.

☐ The defendant has been found not guilty on count(s)
☒ The original Indictment is dismissed on the motion of the United States.
It is ordered that the defendant must notify the United States attorney for this district within 30 days of any change of name,
residence, or mailing address until all fines, restitution, costs, and special assessments imposed by this judgment are fully paid. If
ordered to pay restitution, the defendant must notify the court and United States attorney of material changes in economic
circumstances.

July 17, 2020
Date of Imposition of Judgment

Signature of Judge

BARBARA M. G. LYNN
CHIEF UNITED STATES DISTRICT JUDGE
Name and Title of Judge

July 17, 2020
Date

App. B 001

Case 3:19-cr-00258-M Document 51 Filed 07/17/20

AO 245B (Rev. TXN 9/19) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

Page 2 of 7 PageID 217

Judgment -- Page 2 of 7

BRANDON DEMON BLACKMON
3:19-CR-00258-M(1)

IMPRISONMENT
The defendant is hereby committed to the custody of the United States Bureau of Prisons to be imprisoned for a total term of:
FORTY-SIX (46) MONTHS as to Counts 1 and 2, to run concurrently for a total aggregate sentence of FORTY-SIX (46)
MONTHS.
Pursuant to United States Sentencing Commission, Guidelines Manual, §5G1.3(c) (Nov. 2018), it is the Court’s intent for the
sentence to run concurrently with any sentence imposed in the defendant’s pending cases of Unlawful Possession of a Firearm
by a Felony, under Case No. F-1951862, and Unlawful Possession of a Firearm by a Felon, under Case No. F-1958306, which
are both pending in the 363rd Judicial District Court of Dallas County, in Dallas; Criminal Mischief, under Case No.
F-1958304, Evading Arrest Detention With Vehicle, under Case No. F-1958305, and Obstruction or Retaliation, under Case
No. F-1958307, which are pending in the 363rd Judicial District Court of Dallas County in Dallas, and for the defendant to
receive a sentence adjustment to account for any time spent in custody beginning on September 14, 2019 that the Bureau of
Prisons will not credit under 18 U.S.C. §3585(b). If the Court could order the sentences to run concurrently, it would, so it is
the Court's intention that the effect be the same as if the federal sentence ran concurrently from the date service of the state
sentence began.
This sentence shall run consecutively to any sentence imposed for the defendant's pending charges of Driving While License
Invalid, under Case No. 201700001514, pending in the Municipal Court of the City of Richardson in Richardson, Texas;
Possession of Marijuana, under Case No. 2-84326-2019; Unlawful Carrying Weapon, under Case No. 2-84327-2019; and
Possession of Controlled Substance, under Case No. 2-84329-2019, which are pending in the Collin County Court at Law 2 in
McKinney; Unlawful Possession Firearm by Felon, under Case No. 366-81844-2019, and Possession of a Controlled Substance,
under Case No. 366-81845-2019, which are both pending in the 417th Judicial District Court of Collin County in McKinney, as
they are not related to the instant offense.

☒ The court makes the following recommendations to the Bureau of Prisons:
The Court recommends that the defendant be allowed to serve his sentence in the Dallas-Fort Worth area.
The Court recommends the defendant participate in the Residential Drug Abuse Program (RDAP), if eligible. If the
defendant is not eligible, the court recommends the defendant participate in the maximum drug treatment program
for which he is eligible.

☒ The defendant is remanded to the custody of the United States Marshal.

RETURN
I have executed this judgment as follows:
Defendant delivered on
at

to
, with a certified copy of this judgment.

UNITED STATES MARSHAL

By

DEPUTY UNITED STATES MARSHAL

App. B 002

Case 3:19-cr-00258-M Document 51 Filed 07/17/20

AO 245B (Rev. TXN 9/19) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

Page 3 of 7 PageID 218

Judgment -- Page 3 of 7

BRANDON DEMON BLACKMON
3:19-CR-00258-M(1)

SUPERVISED RELEASE
Upon release from imprisonment, the defendant shall be on supervised release for a term of: THREE (3) YEARS.
The defendant must report to the probation office in the district to which the defendant is released within 72 hours of release from the
custody of the Bureau of Prisons.
The defendant shall not commit another federal, state or local crime.
The defendant shall not unlawfully possess a controlled substance. The defendant shall refrain from any unlawful use of a controlled
substance. The defendant shall submit to one drug test within 15 days of release from imprisonment and at least two periodic drug
tests thereafter, as determined by the court.

MANDATORY CONDITIONS
1.

You must not commit another federal, state or local crime.

2.

You must not unlawfully possess a controlled substance.

3.

You must refrain from any unlawful use of a controlled substance. You must submit to one drug test within 15 days of release
from imprisonment and at least two periodic drug tests thereafter, as determined by the court.

☐ The above drug testing condition is suspended, based on the court's determination that you pose a low risk of future
substance abuse. (check if applicable)

4.

☐ You must make restitution in accordance with 18 U.S.C. §§ 3663 and 3663A or any other statute authorizing a sentence
of restitution. (check if applicable)

5.

☒ You must cooperate in the collection of DNA as directed by the probation officer. (check if applicable)
6. ☐ You must comply with the requirements of the Sex Offender Registration and Notification Act (34 U.S.C. § 20901, et

seq.) as directed by the probation officer, the Bureau of Prisons, or any state sex offender registration agency in which
you reside, work, are a student, or were convicted of a qualifying offense. (check if applicable)

7.

☐ You must participate in an approved program for domestic violence. (check if applicable)

You must comply with the standard conditions that have been adopted by this court as well as with any additional
conditions on the attached page.

App. B 003

Case 3:19-cr-00258-M Document 51 Filed 07/17/20

AO 245B (Rev. TXN 9/19) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

Page 4 of 7 PageID 219

Judgment -- Page 4 of 7

BRANDON DEMON BLACKMON
3:19-CR-00258-M(1)

STANDARD CONDITIONS OF SUPERVISION
1.
2.
3.
4.
5.
6.
7.
8.
9.
10.
11.
12.
13.

the defendant shall not leave the judicial district without the permission of the court or probation officer;
the defendant shall report to the probation officer in a manner and frequency directed by the court or probation officer;
the defendant shall answer truthfully all inquiries by the probation officer and follow the instructions of the probation officer;
the defendant shall support his or her dependents and meet other family responsibilities;
the defendant shall work regularly at a lawful occupation, unless excused by the probation officer for schooling, training, or other
acceptable reasons;
the defendant shall notify the probation officer at least ten days prior to any change in residence or employment;
the defendant shall refrain from excessive use of alcohol and shall not purchase, possess, use, distribute, or administer any controlled
substance or any paraphernalia related to any controlled substances, except as prescribed by a physician;
the defendant shall not frequent places where controlled substances are illegally sold, used, distributed, or administered;
the defendant shall not associate with any persons engaged in criminal activity and shall not associate with any person convicted of a
felony, unless granted permission to do so by the probation officer;
the defendant shall permit a probation officer to visit him or her at any time at home or elsewhere and shall permit confiscation of any
contraband observed in plain view of the probation officer;
the defendant shall notify the probation officer within seventy-two hours of being arrested or questioned by a law enforcement officer;
the defendant shall not enter into any agreement to act as an informer or a special agent of a law enforcement agency without the
permission of the court; and
as directed by the probation officer, the defendant shall notify third parties of risks that may be occasioned by the defendant’s criminal
record or personal history or characteristics and shall permit the probation officer to make such notifications and to confirm the defendant’s
compliance with such notification requirement.

App. B 004

Case 3:19-cr-00258-M Document 51 Filed 07/17/20

AO 245B (Rev. TXN 9/19) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

Page 5 of 7 PageID 220

Judgment -- Page 5 of 7

BRANDON DEMON BLACKMON
3:19-CR-00258-M(1)

SPECIAL CONDITIONS OF SUPERVISION
The defendant shall participate in a program (inpatient and/or outpatient) approved by the U.S.
Probation Office for treatment of narcotic, drug, or alcohol dependency, which will include testing
for the detection of substance use or abuse. The defendant shall abstain from the use of alcohol
and/or all other intoxicants at any time. The defendant shall contribute to the costs of services
rendered (copayment) at a rate of at least $10 per month.
The defendant shall participate in mental health treatment or anger management services as
directed by the probation officer until successfully discharged. These services may include
medications prescribed by a licensed physician. The defendant shall contribute to the costs of
services rendered (copayment) at a rate of at least $10 per month.
The defendant shall provide to the probation officer any requested financial information.

App. B 005

Case 3:19-cr-00258-M Document 51 Filed 07/17/20

AO 245B (Rev. TXN 9/19) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

Page 6 of 7 PageID 221

Judgment -- Page 6 of 7

BRANDON DEMON BLACKMON
3:19-CR-00258-M(1)

CRIMINAL MONETARY PENALTIES
The defendant must pay the total criminal monetary penalties under the Schedule of Payments page.
TOTALS

Assessment
$200.00

Restitution
$.00

Fine
$.00

AVAA Assessment*
$.00

JVTA Assessment**

☐ The determination of restitution is deferred until


An Amended Judgment in a Criminal Case (AO245C) will be entered
after such determination.
The defendant must make restitution (including community restitution) to the following payees in the amount listed below.
If the defendant makes a partial payment, each payee shall receive an approximately proportioned payment. However, pursuant to 18 U.S.C.
§ 3664(i), all nonfederal victims must be paid before the United States is paid.

☐ Restitution amount ordered pursuant to plea agreement $
☐ The defendant must pay interest on restitution and a fine of more than $2,500, unless the restitution or fine is paid in full before
☐

the fifteenth day after the date of the judgment, pursuant to 18 U.S.C. § 3612(f). All of the payment options on the Schedule
of Payments page may be subject to penalties for delinquency and default, pursuant to 18 U.S.C. § 3612(g).
The court determined that the defendant does not have the ability to pay interest and it is ordered that:
☐ the interest requirement is waived for the
☐ fine
☐ restitution

☐ the interest requirement for the

☐ fine

☐ restitution is modified as follows:

* Amy, Vicky, and Andy Child Pornography Victim Assistance Act of 2018, Pub. L. No. 115-299.

** Justice for Victims of Trafficking Act of 2015, Pub. L. No. 114-22
*** Findings for the total amount of losses are required under Chapters 109A, 110, 110A, and 113A of Title 18 for offenses committed on or after
September 13, 1994, but before April 23, 1996.

App. B 006

Case 3:19-cr-00258-M Document 51 Filed 07/17/20

AO 245B (Rev. TXN 9/19) Judgment in a Criminal Case

DEFENDANT:
CASE NUMBER:

Page 7 of 7 PageID 222

Judgment -- Page 7 of 7

BRANDON DEMON BLACKMON
3:19-CR-00258-M(1)

SCHEDULE OF PAYMENTS
Having assessed the defendant’s ability to pay, payment of the total criminal monetary penalties is due as follows:
A

☐ Lump sum payments of $

due immediately, balance due

☐ not later than
☐ in accordance

, or

☐

C,

☐

D,

B

☐ Payment to begin immediately (may be combined with

C

☐ Payment in equal
or

D

☐

E, or

☐

F below; or

☐

C,

☐

D, or

☐

(e.g., weekly, monthly, quarterly) installments of $
(e.g., months or years), to commence

over a period of

(e.g., 30 or 60 days) after the date of this judgment;

☐ Payment in equal 20 (e.g., weekly, monthly, quarterly) installments of $
(e.g., months or years), to commence
imprisonment to a term of supervision; or

F below); or

over a period of

(e.g., 30 or 60 days) after release from

E

☐ Payment during the term of supervised release will commence within

F

☒ Special instructions regarding the payment of criminal monetary penalties:

(e.g., 30 or 60 days) after release
from imprisonment. The court will set the payment plan based on an assessment of the defendant’s ability to pay at that
time; or

It is ordered that the Defendant shall pay to the United States a special assessment of $200.00 for Counts 1s and
2s , which shall be paid immediately. Said special assessment shall be paid to the Clerk, U.S. District Court.

Unless the court has expressly ordered otherwise, if this judgment imposes imprisonment, payment of criminal monetary penalties is
due during imprisonment. All criminal monetary penalties, except those payments made through the Federal Bureau of Prisons’
Inmate Financial Responsibility Program, are made to the clerk of the court.
The defendant shall receive credit for all payments previously made toward any criminal monetary penalties imposed.


Joint and Several
See above for Defendant and Co-Defendant Names and Case Numbers (including defendant number), Total Amount, Joint and
Several Amount, and corresponding payee, if appropriate.

☐ The defendant shall pay the cost of prosecution.
☐ The defendant shall pay the following court cost(s):
☒

The defendant shall forfeit the defendant’s interest in the following property to the United States:
Pursuant to the Oral Preliminary Order of Forfeiture, the defendant is to forfeit a Hi-Point Firearms, Model C9, 9millimeter caliber pistol, serial No. P10007945 and a Cobra, Model FS (Freedom) Series 380, .380 caliber pistol, Serial
No. F083991; and any ammunition recovered.

Payments shall be applied in the following order: (1) assessment, (2) restitution principal, (3) restitution interest, (4) AVAA
assessment, (5) fine principal, (6) fine interest, (7) community restitution, (8) JVTA assessment, (9) penalties, and (10) costs,
including cost of prosecution and court costs.

App. B 007

